        Apr 24 09 12:10a                                                                                             p.2




(
                                    NATIONAL RAILROAJ) PASSENGER CORPORATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS
                                          INVESTIGATIVE CLOSING REPORT

               TITLE:              Theft_                                                CASI~   NUMBER: 04-92
               DATE OFREI'ORT:     ~                                         fK:
               REPORT PREPARED nY, _      SSAonct                         .Ii_lii
                                                                               ••• SA
               1. I,'INDINGS OF FACT AN]) ImCOMMENDATIONS

               A, 1?IN])INGS OF FACT

               1.    During Lead Service A!1endanl ("LSA") pocket reviews lJy the Ofl1ce ofTllspector General
                     ~nvcstigations ("01"), it was determined that packets belonging t o _
                     ~ former LSA, had contained lUlder reportcd sales amounts. The packets
                     had been processed lJy Tmin Provision Managemenl' System (UTPMS") Clerks who had
                     previously beon implicated in activities designed to retain Amtrak flUIds fOI' personal gain.

            . 2.     or fouud eleven (11) sales packets belonging.to • • • that contained Ululer reported sales
                     amolUlts totaling $4,190.50.

(             3.     As a result of OI's investigation, Amtrak issued administrative charges against on
                     Augllst 3, 2004, and _ w a s terminatcd on November 4, 2004. Amtrak also withlleld
    /
                     $2,587.91 in vacatioll pay fronl_'s final paycheck.

              4. On August 31, 2005, or referred _ ' s case to the United States Attorney's Office.
                 011 June 1,2006, the United States Attorney's Olliee decliued jJroseeution of • • •
                                            ,
              5.    On Oetobel; 26, 2006,' tho       State's Attorney's Office agreed to pursl~secutl()n of
                    _.                was indicted by the Grand Jury of the Circuit Court of _    ComIty 011
                    October 30, 2006.

             6.     Oll JaJluary 30, 2008, _       was convicted of'nlcft by a plen of gUllty in the Circuit Court
                    of_ColUlty and sentenced to ono year of comt supervision,                 Iwas ulso ordered to
                    pay Amtrak restitution in the amount of $500. _ h a s paid Amtrak $400 iUl'Cstilutiou.

             7.               Casoworker informed or thnt a representative frolll her OlliCD, the Circuit Com! of
                          COlun'ty Social Service Depal'lmellt, had requested that a warrant be issued tori• •
                                       had failed to attend !l hearing to address her fnilme to puy tho remaining
                            A "''''olr However, the cOUlt refused to issue the warrant and tenllinated _
                    eomt supelvision.

             H, RECOMMENDATIONS
(            1. Close case.



             ctosing \(0l'0rl 04·92.doc.L
